               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




       The Sufficiency of Recent Policy
       Changes Regarding Contracting
             Conflicts of Interest

                       Audit Report




                                              August 31, 2011

Report Number CA-AR-11-006
                                                                         August 31, 2011

                                                    The Sufficiency of Recent Policy
                                                    Changes Regarding Contracting
                                                                 Conflicts of Interest

                                                         Report Number CA-AR-11-006




IMPACT ON:                                   Postal Service Purchasing Policies
This audit will impact the U.S. Postal       audit. Actions taken to date include
Service’s purchasing policies.               implementing policies similar to or more
                                             stringent than the FAR requirements.
WHY THE OIG DID THE AUDIT:                   The new policies are sufficient to avert
This audit is a follow-up to our audit of    direct or imputed conflicts of interest
U.S. Postal Service Purchasing Policies      among contracting officials and internal
(Report Number CA-AR-10-005, dated           business clients and should help to
September 20, 2010). The previous            promote accountability and impartial and
audit identified that the control            cost-effective contracting decisions.
environment within the Postal Service
allowed the awarding of contracts even       WHAT THE OIG RECOMMENDED:
though there were apparent conflicts of      Because of the Postal Service’s actions
interest. Additionally, the prior audit      to date, we are not making any
identified contracts with former Postal      recommendations at this time.
Career Executive Service executives
that did not contain adequate                WHAT MANAGEMENT SAID:
noncompetitive justifications. Senator       Management agreed with the findings of
Susan M. Collins requested that we           this report; however, for noncompetitive
review the Postal Service’s recent policy    contracting actions, they plan to issue
changes regarding conflicts of interest      an annual summary report in lieu of
and contracting with former executives.      publishing the full noncompetitive
Our objective was to determine whether       justification for each contract action.
the changes were sufficient to promote
accountability and impartial and             AUDITORS’ COMMENTS:
cost-effective contracting decisions. We     Management’s plan to incorporate a
also compared the Federal Acquisition        summary of noncompetitive actions into
Regulation (FAR) conflict of interest        an annual report will not be sufficient to
rules with applicable Postal Service         close our prior recommendation. Timely
rules.                                       public reporting of the entire justification
                                             for noncompetitive contracts will help
WHAT THE OIG FOUND:                          promote accountability and impartial and
The Postal Service agreed to take            cost-effective contracting decisions.
action to address weaknesses related to
conflicts of interest and contracting with   Link to review the entire report
former executives identified in the U.S.
August 31, 2011

MEMORANDUM FOR:             SUSAN M. BROWNELL
                            VICE PRESIDENT, SUPPLY MANAGEMENT




FROM:                       Mark W. Duda
                            Deputy Assistant Inspector General
                             for Support Operations

SUBJECT:                    Audit Report – The Sufficiency of Recent Policy
                            Changes Regarding Contracting Conflicts of Interest
                            (Report Number CA-AR-11-006)

This report presents the results of our audit of the sufficiency of recent policy changes
regarding contracting conflicts of interest (Project Number 11YG020CA000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Judith Leonhardt, director,
Supply Management, or me at 703-248-2100.

Attachments

cc: Joseph Corbett
    Susan Witt
    Corporate Audit and Response Management
                                                TABLE OF CONTENTS




Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Status of the Postal Service’s Actions to Address Weaknesses Noted in a Prior Audit
Report ............................................................................................................................. 1

Comparison of FAR Conflict of Interest Requirements to Postal Service Policies ........... 2

Management’s Comments .............................................................................................. 3

Evaluation of Management’s Comments ......................................................................... 3

Appendix A: Additional Information ................................................................................. 4

   Background ................................................................................................................. 4

   Objective, Scope, and Methodology ............................................................................ 5

   Prior Audit Coverage ................................................................................................... 6

Appendix B: Postal Service’s Actions to Address Weaknesses ...................................... 8

Appendix C: Comparison of the FAR to Postal Service’s Policies ................................. 12

Appendix D: Management’s Comments ........................................................................ 20
The Sufficiency of Recent Policy Changes Regarding                              CA-AR-11-006
 Contracting Conflicts of Interest


Introduction

This report presents the results of our audit of the sufficiency of recent policy changes
regarding contracting conflicts of interest (Project Number 11YG020CA000). The report
responds to a request from Senator Susan M. Collins to review the U.S. Postal
Service’s recent policy changes regarding conflicts of interest and contracting with
former executives. Our objective was to determine whether the Postal Service’s recent
purchasing policy changes regarding conflicts of interest related to noncompetitive
contracts and contracts with former executives were sufficient to promote accountability
and impartial and cost-effective contracting decisions. In addition, Senator Collins asked
that we include a comparative analysis of the Federal Acquisition Regulation (FAR)
conflict of interest rules with applicable Postal Service rules. This audit addresses
operational risk. See Appendix A for additional information about this audit.

This audit is a follow-up to a previous audit titled U.S. Postal Service Purchasing
Policies (Report Number CA-AR-10-005, dated September 20, 2010). That audit
identified the control environment within the Postal Service that allowed the requesting
business function to negotiate prices and award contracts to friends and former
associates even though there were apparent conflicts of interest. Although contracting
officers (COs) were, at times, aware of potential conflicts of interest, they did not always
object. Additionally, the audit identified contracts with former Postal Career Executive
Service (PCES) executives that did not contain adequate noncompetitive justifications.

Conclusion

The new policies issued in response to our prior audit are sufficient to avert direct or
imputed conflicts of interest among contracting officials and internal business clients
and should help to promote accountability and impartial and cost-effective contracting
decisions. The actions taken to date include implementing policies similar to or more
stringent than the requirements of the FAR.

Status of the Postal Service’s Actions to Address Weaknesses Noted in a Prior
Audit Report

The U.S. Postal Service Purchasing Policies audit found the Postal Service’s
procurement policies and procedures for awarding noncompetitive contracts were much
less extensive than those mandated in the FAR. Postal Service management has begun
taking actions in response to that audit’s recommendations. They have completed
corrective actions for four of the nine recommendations. You can find the details of
actions the Postal Service has taken to address the weaknesses noted in the U.S.
Postal Service Policies audit in Appendix B.




                                                     1
The Sufficiency of Recent Policy Changes Regarding                                                      CA-AR-11-006
 Contracting Conflicts of Interest


Comparison of FAR Conflict of Interest Requirements to Postal Service Policies

In 1970, congress passed the Postal Reorganization Act1 which established the Postal
Service. The Postal Service was given flexibility with its purchasing practices and is
exempt from most federal procurement regulations including the FAR, the Competition
in Contracting Act of 19842, and the Procurement Integrity Act.3 The FAR was
established to codify and publish mandatory uniform policies and procedures for all
executive agency acquisitions. As such, violating the FAR is a clear violation of a known
federal regulation. 4 The Postal Service’s Supplying Principles and Practices (SP&Ps)
are not binding regulations and are generally intended to provide flexibility and
discretion in their application to specific business situations.5 We compared FAR
requirements to Postal Service policies in regard to the potential for conflicts of interest
related to noncompetitive contracts and contracts with former executives (see Appendix
C for greater details).

As detailed in the comparison, in some cases, Postal Service policies are more
stringent than the FAR requirements. For example:

   The FAR requires the head of the contracting activity (HCA) and the agency head to
    be involved in the process at certain points in resolving ethics violations or possible
    violations of the Procurement Integrity Act. The Postal Service’s policies involve
    ethics officials earlier in the purchasing process. The ethics counsel is independent
    of the purchasing decision and reports to the postmaster general (PMG). In addition,
    only a designated ethics official and the PMG in consultation with the Office of
    Government Ethics may grant a statutory waiver for a financial conflict of interest.6

   The FAR does not contain conflict of interest and non-disclosure of sensitive
    information certification requirements for noncompetitive justifications. The Postal
    Service’s policies require the requesting organization to submit a noncompetitive
    purchase request. The responsible parties of the requesting organization must
    certify that they do not have any conflicts of interest or loss of impartiality and will not
    disclose any sensitive information during the purchasing process.


1
  The Postal Service was established as an independent establishment within the Executive branch of the
government of the U.S. under the Postal Reorganization Act of August 12, 1970 (Public Law 91–375, 84 Stat. 719).
2
  The Competition in Contracting Act of 1984 revised the FAR to encourage competition for awarding all types of
government contracts. The purpose was to increase the number of competitors and savings through lower, more
competitive pricing.
3
  FAR 3.104-2, General, implements Section 27 of the Office of Federal Procurement Policy Act (the Procurement
Integrity Act). The Postal Service is not required to comply with the act. The act includes prohibitions on disclosing
and obtaining certain procurement information, actions required when an agency official contacts or is contacted by
an offeror regarding non-federal employment, and prohibition’s on former officials acceptance of compensation from a
contractor.
4
  The FAR does provide for flexibility in strategies, practices, policies, and procedures as long as the actions pursued
are not specifically disallowed by the FAR, law, or regulation.
5
  Postal Service purchasing regulations are contained in 39 CFR Section 601.
6
  5 CFR 2635.402(d)(4) states that, when practicable, an official is required to consult formally or informally with the
Office of Government Ethics prior to granting a waiver referred to in paragraph (d)(2) or (3) of this section. A copy of
each such waiver is to be forwarded to the director, Office of Government Ethics.


                                                           2
The Sufficiency of Recent Policy Changes Regarding                                                       CA-AR-11-006
 Contracting Conflicts of Interest


   The FAR states that the Competition Advocate (CA) or an individual in a grade
    above general schedule (GS) 15 or comparable must approve justifications valued at
    between $650,000 and $12.5 million. The head of the procuring activity must
    approve justifications over $12.5 million. The Postal Service’s CA is responsible for
    independently reviewing and advising the CO on all noncompetitive purchase
    requests valued at $1 million or more. Portfolio managers within Supply
    Management may approve purchase method recommendations for noncompetitive
    purchases valued at up to $10 million, except for noncompetitive purchases of
    professional, technical, and consultant services valued at $1 million or more. The
    vice president, Supply Management, must approve requests for noncompetitive
    professional, technical, and consultant services purchases valued at $1 million or
    more, and all other noncompetitive purchases valued at $10 million or more.
    Portfolio managers may delegate up to $250,000 of this purchase method approval
    authority to subordinate team leaders or managers in the applicable purchasing
    organizations.

Because of the Postal Service’s actions to date, we are not making any
recommendations at this time.

Management’s Comments

Management agreed with the findings. However, management clarified that in response
to our prior recommendation7 concerning full and accurate tracking and public reporting
of noncompetitive contracting actions, they plan to annually issue a fiscal year report
that includes total dollars committed competitively, noncompetitively, and to required
sources. For noncompetitive actions, they plan to incorporate a summary with the
supplier’s name, dollars committed, and the type of business scenario justifying the
noncompetitive purchase. See Appendix D for management’s comments in their
entirety.

Evaluation of Management’s Comments

As the report did not contain any recommendations, the U.S. Postal Service Office of
Inspector General (OIG) considers management’s comments responsive. However,
management’s plan to incorporate a summary of the supplier’s name, dollars
committed, and the type of business scenario justifying the noncompetitive purchase
into an annual report will not be sufficient to close our prior recommendation.
Specifically, we recommended the Postal Service take steps to ensure full and accurate
tracking and public reporting of noncompetitive contracting actions and justifications for
noncompetitive contracts. The timely public reporting8 of the entire justification for
noncompetitive contracts will help to promote accountability and impartial and cost-
effective contracting decisions.

7
  Recommendation number 5 in the U.S. Postal Service Purchasing Policies audit report (Report Number CA-AR-10-
005, dated September 20, 2010).
8
  FAR 6.305, Availability of the Justification, requires noncompetitive justifications be made publicly available at the
Government Wide Point of Entry and on the agency website within 14 days after contract award.


                                                           3
The Sufficiency of Recent Policy Changes Regarding                                                    CA-AR-11-006
 Contracting Conflicts of Interest


                                 Appendix A: Additional Information

Background

The Postal Service may contract with former employees (other than former officers or
PCES executives) or with suppliers proposing the use of former employees during
contract performance when the former employee's expertise will further the success of
the purchase and the business and competitive interests of the Postal Service.9
Contracts with former employees or with suppliers offering the services of former
employees should not be confused with employing annuitants. A reemployed annuitant
is an annuitant10 who the Postal Service has rehired under conditions that do not
terminate the annuity. Generally the law requires that the salary of the reemployed
annuitant be reduced (or offset) by the amount of the annuity.11

In addition, it is Postal Service policy not to contract with former officers or PCES
executives or entities with whom such individuals have a substantial interest for 1 year
after the date of their separation from the Postal Service (whether by retirement or
otherwise) if the contract calls for substantially the same duties they performed during
their career with the Postal Service. The vice president of Human Resources may grant
exceptions to this policy when they determine that doing so is in the best interests of the
Postal Service.12

As detailed above, the Postal Service has specific policies prohibiting contracting with
former employees except under certain conditions; however, policies and internal
controls did not prevent this from occurring. The U.S. Postal Service Purchasing
Policies audit (Report Number CA-AR-10-005, dated September 20, 2010) disclosed,
among other things, that the Postal Service did not follow applicable policy when
awarding noncompetitive contracts to former PCES executives. Specifically, we
analyzed three contracts and found that management did not sufficiently document their
noncompetitive business cases. Also, the former executives were generally brought
back to perform duties or “transfer knowledge” related very closely to the Postal Service
position they vacated at rates of pay higher than their former salaries. In addition,
management awarded these contracts noncompetitively and the Postal Service may not
have received best value for them. Because awarding noncompetitive contracts can, by
nature, give the appearance of favoritism and lack of impartiality, it is essential that
contracting personnel approving these contracts consider any potential appearance of
impropriety before approving the noncompetitive purchase. In response to
recommendations the OIG made in the report, the Postal Service implemented revisions
to purchasing policies and procedures.



9
  SP&Ps General Practice 7-12.3, Contracts With Other Former Employees.
10
   An individual who has retired from the Postal Service or another agency of the federal government and is receiving
an annuity from the Office of Personnel Management based on their federal government service under the Civil
Service Retirement System or the Federal Employees Retirement System.
11
   5 CFR 837.303, Annuity Offset.
12
   SP&Ps General Practice 7-12.2, Contracts With Former Officers and Executives.


                                                          4
The Sufficiency of Recent Policy Changes Regarding                             CA-AR-11-006
 Contracting Conflicts of Interest



Objective, Scope, and Methodology

Our objective was to determine whether the Postal Service’s recent purchasing policy
changes regarding conflicts of interest related to noncompetitive contracts and contracts
with former executives were sufficient to promote accountability and impartial and
cost-effective contracting decisions. In addition, we performed a comparative analysis of
the FAR conflict of interest rules with applicable Postal Service rules.

To accomplish our objectives we:

   Documented recently revised Postal Service purchasing policies and procedures
    and the prior policies and procedures regarding conflicts of interest related to
    noncompetitive contracts, contracts with former executives, and service contracts.

   Compared revised Postal Service policies and procedures regarding ethics and
    conflict of interest related to noncompetitive contracts; contracts with former Postal
    Service officers, and PCES executives; and professional, technical, consultant, and
    personal services type contracts with the previous policies and weaknesses noted in
    prior audit reports.

   Documented FAR purchasing policies and procedures regarding ethics and conflicts
    of interest related to noncompetitive contracts; contracts with former federal
    employees, officers, and executives; and service, personal, advisory and assistant,
    non-personal, and architect/engineer contracts.

   Compared Postal Service policies and procedures regarding conflicts of interest
    related to noncompetitive contracts; contracts with former Postal Service officers and
    PCES executives; and professional, technical, consultant, and personal services
    contracts to the FAR.

   Discussed Postal Service policies and procedures with Supply Management,
    Corporate Personal Management, and General Council personnel.

We conducted this performance audit from February through August 2011 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on June 15, 2011, and included their
comments where appropriate.




                                                     5
     The Sufficiency of Recent Policy Changes Regarding                                   CA-AR-11-006
      Contracting Conflicts of Interest


     Prior Audit Coverage

                                              Final
                         Report              Report           Monetary
 Report Title            Number               Date             Impact             Report Results
Controls Over        CA-AR-06-002          5/26/2006              $137,636     Controls over
Noncompetitive                                                                 noncompetitive personal
Contracts                                                                      services contracts
Awarded to                                                                     awarded to former Postal
Former Postal                                                                  Service employees
Service                                                                        needed improvement.
Employees                                                                      Management agreed with
                                                                               the recommendations but
                                                                               disagreed with the
                                                                               monetary impact.
Management           MS-MA-09-001          10/22/2008                    $0    Management controls
Controls at                                                                    related to contractor
Contractor-                                                                    operated mail processing
Operated                                                                       facilities did not address
Processing                                                                     potential organizational
Facilities                                                                     conflicts of interest.
                                                                               Management generally
                                                                               agreed with the
                                                                               recommendations related
                                                                               to preventing
                                                                               organizational conflicts of
                                                                               interest.
U.S. Postal          CA-AR-10-005          9/20/2010          $218,940,344    Steps needed to be taken
Service                                                                       to strengthen oversight
Purchasing                                                                    and transparency of the
Policies                                                                      Postal Service’s
                                                                              noncompetitive
                                                                              purchasing policies,
                                                                              maximize competition,
                                                                              ensure best value, and
                                                                              avoid any actual or
                                                                              apparent conflicts of
                                                                              interest in the contracting
                                                                              process. Management
                                                                              generally agreed with the
                                                                              findings,
                                                                              recommendations, and
                                                                              monetary impact.




                                                          6
     The Sufficiency of Recent Policy Changes Regarding                            CA-AR-11-006
      Contracting Conflicts of Interest


Conflicts of         DA-AR-11-008          6/8/2011           $737,359   The Postal Service
Interest: Facility                                                       entered into leases that
Leases and                                                               resulted in financial
Contract Delivery                                                        conflicts. Similarly, the
Services                                                                 Postal Service entered
                                                                         into contract delivery
                                                                         service contracts with
                                                                         current or former
                                                                         employees that, in some
                                                                         cases, resulted in
                                                                         apparent violations of
                                                                         federal regulations and
                                                                         Postal Service policies.
                                                                         Management agreed with
                                                                         the recommendations but
                                                                         disagreed about the
                                                                         application of certain
                                                                         ethics laws. Management
                                                                         also disagreed with the
                                                                         monetary impact.




                                                          7
     The Sufficiency of Recent Policy Changes Regarding                                       CA-AR-11-006
      Contracting Conflicts of Interest


                 Appendix B: Postal Service’s Actions to Address Weaknesses

     The following table details the actions taken by the Postal Service to address the
     weaknesses noted in the U.S. Postal Service Purchasing Policies audit (Report Number
     CA-AR-10-005, dated September 20, 2010).

          Recommendations                                      Postal Service Actions
1. Establish a CA within the Postal              The Postal Service appointed a CA January 28,
   Service to independently review and           2011. The vice president, Supply Management,
   approve justifications for                    appointed the CA to challenge barriers to
   noncompetitive purchases and support          competition, assist purchasing teams in developing
   the use of competition in the Postal          Supply Chain Management solutions, obtain best
   Service. The CA should also prepare           value, and independently review and advise the CO
   and submit an annual report to the chief      on all noncompetitive purchase requests valued at
   financial officer and vice president,         $1 million or more. In addition, the CA produces an
   Supply Management, describing                 annual report on noncompetitive purchase activity
   barriers to competition and goals and         that is submitted to the vice president, Supply
   plans for increasing competition.             Management, and is posted online for both internal
                                                 Postal Service and public audiences. Reporting will
                                                 begin in conjunction with recommendation 5 in
                                                 November 2011.
2. Immediately discontinue contracting           The new policy requires Corporate Personnel
   with former Postal Service executives         Management (CPM) to review all requests to contract
   until adequate controls are                   directly with any individual or an individual who is a
   implemented. Such controls should             principal or owner of a sole proprietorship,
   address the appropriate duties and            partnership, or corporation. This includes former
   functions of former executives in             and/or retired Postal Service and federal civilian
   contracted positions, ensure that no          employees. CPM personnel are required to evaluate
   former executives are paid more than          the information in the request and determine whether
   the equivalent of their previous Postal       the individual may be engaged under a services
   Service rate of pay if contracted             contract or classified as an employee.
   noncompetitively, and require a
   thorough cost and price analysis of           Also, the new policy institutes the requirement that
   proposed rates.                               service contracts with former employees performing
                                                 services significantly similar to their Postal Service
                                                 duties establish a rate of compensation consistent
                                                 with the current salary range for the last position held
                                                 by the employee. The CO must still make a
                                                 determination that the contract price is fair and
                                                 reasonable and include that determination in the
                                                 contract file.




                                                          8
     The Sufficiency of Recent Policy Changes Regarding                                      CA-AR-11-006
      Contracting Conflicts of Interest


3. Review the need and propriety of all          CPM conducted a review of 27 contracts using the
   existing contracts with former                new policy. The data included contract information
   executives.                                   provided by the OIG and records of contracts
                                                 maintained within Supply Management. Three
                                                 contracts with former executives remain. There was a
                                                 determination that these individuals are not providing
                                                 services significantly similar to those performed by
                                                 the former executive when he or she was employed
                                                 by the Postal Service, there is a relevant need for the
                                                 services, and the rate of pay was determined as fair
                                                 and reasonable.

                                                 The Postal Service is currently working to identify all
                                                 contracts with former executives granted under
                                                 delegations of authority and plans to fully implement
                                                 this recommendation by September 30, 2011.
4. Amend the Administrative Support              A revision to the Administrative Support Manual,
   Manual to emphasize the importance of         Chapter 7, requires all individuals engaged in the
   compliance with all policies, circulars,      purchasing process to follow the policies and
   and instructions pertinent to                 procedures contained in the SP&Ps and other
   encouraging competition and managing          directives, such as management instructions, related
   noncompetitive purchases.                     to the purchase method and other business
                                                 processes.
5. Take steps to ensure full and accurate        Supply Management reviewed coding classifications
   tracking and public reporting of              within the Contract Authoring Management System
   noncompetitive contracting actions.           and updated the system. These changes provide
   Data reported should include, but not         enhanced capability for tracking and reporting of
   be limited to, total dollars committed        competitive and noncompetitive contract actions.
   both competitively and                        Training was provided to employees in March and
   noncompetitively; and the contractor,         April and an internal initiative to perform testing on
   dollar value, and justification for           contract documentation requirements for new
   noncompetitive contracts. The tracking        contracts has begun. Similar efforts are being
   mechanism should be able to identify a        launched for two other contracting systems. The
   noncompetitive contract that has              Postal Service plans to implement reporting
   crossed the review and approval               enhancements by November 2011.
   threshold based on modification after
   initial award.




                                                          9
     The Sufficiency of Recent Policy Changes Regarding                                       CA-AR-11-006
      Contracting Conflicts of Interest


6. Revoke delegations of authority for           The Postal Service agreed to review delegations of
   contracts that acquire goods and              authority that were issued for the purchase of goods
   services for the Postal Service and           and services and determine whether there is a
   bring these contracts into compliance         continued need for such delegations. As necessary,
   with all Postal Service purchasing            the Postal Service agreed to revise the delegations to
   policies.                                     bring them into compliance with Postal Service
                                                 purchasing policies. During the review, if it is
                                                 determined that the delegation of authority is not in its
                                                 best interests, the Postal Service agreed to revoke it
                                                 and perform any necessary contract actions within
                                                 Supply Management. The Postal Service plans to
                                                 implement this recommendation by December 31,
                                                 2011.
7. Require that all noncompetitive contract      The new policy requires the CO to perform a
   files include a determination by the CO       thorough review of the noncompetitive purchase
   that prices are fair and reasonable and       request, evaluate the supplier, consider any other
   a CO’s certification that the justification   matter that may lead to a more informed business
   is accurate and complete to the best of       decision, and then make a recommendation to the
   their knowledge and belief. A detailed        approval authority. These actions, in effect, make the
   analysis supporting these certifications      CO accountable for his or her actions.
   should be part of the noncompetitive
   purchase documentation.                       Also, the new policy requires the CO to negotiate
                                                 reasonable pricing and terms and conditions prior to
                                                 contract award and ensure that all necessary reviews
                                                 and approvals, price determinations, and supplier
                                                 evaluations are documented and included in the
                                                 contract file.




                                                          10
     The Sufficiency of Recent Policy Changes Regarding                                      CA-AR-11-006
      Contracting Conflicts of Interest


8. Require Supply Management officials           The new policy discusses the need for purchase
   approving noncompetitive contracts to         teams, COs, and management to fully consider and
   review purchases for potential or             address any ethical concerns on the part of any
   apparent conflicts of interest and            employee involved in the contracting process as well
   evaluate any potential conflicts through      as any organizational conflicts of interest on the part
   the agency’s ethics official before           of the suppliers. It also addresses financial conflicts
   approval. The opinion and                     of interest, impartiality in performing official duties,
   recommendations of the agency ethics          and misuse of position. In addition, a new section
   official should be documented in the          discusses avoiding real or apparent conflicts of
   contract file. In addition, any person        interest and includes circumstances in which an
   found to have an actual or apparent           individual involved in the contracting process must
   conflict of interest should not be            seek ethics counseling. Ethics counsel are required
   allowed to participate in negotiations        to advise the CO and the employee if the Postal
   with the contractor.                          Service’s best interests will be served by the
                                                 employee’s participation in the matter or if the
                                                 employee must be disqualified from these activities.
                                                 Finally, the requesting organization must submit a
                                                 noncompetitive purchase request that certifies they
                                                 do not have a financial interest in any entity or party
                                                 interested in the purchase. They must also certify that
                                                 they will not disclose any sensitive information during
                                                 the purchase process. The noncompetitive purchase
                                                 request must be signed by all responsible parties in
                                                 the requesting organization.
9. Institute an oversight mechanism to           The Postal Service plans to implement this
   ensure and track compliance with              recommendation by March 2012.
   updated noncompetitive contracting
   policies.




                                                          11
  The Sufficiency of Recent Policy Changes Regarding                                        CA-AR-11-006
   Contracting Conflicts of Interest


             Appendix C: Comparison of the FAR to Postal Service’s Policies

  In regard to the potential for conflicts of interest related to noncompetitive contracts and
  contracts with former executives, the following table details the comparison of the FAR
  requirements to Postal Service policies.

  FAR Reference                    FAR Requirement                        Postal Service Policies
FAR 3.101-1               Government business shall be              Postal Service supplying
Standards of Conduct      conducted in a manner above               professionals will act with the
                          reproach and, except as authorized        highest standards of conduct,
                          by statute or regulation, with            ethics, and integrity. The Postal
                          complete impartiality and with            Service has an interest in early
                          preferential treatment for none.          identification and remediation of
                          Transactions relating to the              organizational conflicts of interest on
                          expenditure of public funds require       the part of its suppliers. The Postal
                          the highest degree of public trust        Service will attempt to avoid
                          and an impeccable standard of             situations in which a supplier has an
                          conduct. The general rule is to           unfair competitive advantage or
                          strictly avoid any conflict of interest   other interests that may impair the
                          or even the appearance of a               supplier’s objectivity in dealing with
                          conflict of interest in                   the Postal Service or in its ability to
                          government-contractor                     perform satisfactorily on Postal
                          relationships.                            Service contracts.
FAR 3.104                 FAR 3.104-2(a) implements the             All Postal Service employees must
Procurement Integrity     Procurement Integrity Act that            adhere to the Standards of Ethical
                          prohibits certain conduct and             Conduct for Employees of the
                          includes other statutes and               Executive Branch, 5 CFR 2635 and
                          regulations including:                    the Supplemental Standards of
                                                                    Ethical Conduct for Postal
                              5 CFR 2635.                          Employees, 5 CFR 7001. 5 CFR
                              5 CFR 2636.                          2635, Subpart A, Section 101(c)
                              18 USC 201, 203, 205, 207,           states that 18 USC 201, 203, 205,
                               208, and 209.                        208, and 209 are applicable to all
                                                                    employees. In addition, 5 CFR 7001
                          FAR 3.104-5(b) states that an
                                                                    states that Postal Service
                          agency official who has a conflict of
                                                                    employees are also subject to
                          interest must promptly submit
                                                                    5 CFR 2634 and 39 CFR 447.
                          written notice of disqualification
                                                                    Further, 39 CFR 10 and 3000 apply
                          from further participation in the
                                                                    to the Postal Service as well.
                          procurement to the CO, the source
                          selection authority if other than the
                                                                    Purchase teams, CO, and
                          CO, and the agency official’s
                                                                    management must fully consider
                          immediate supervisor. Also, FAR
                                                                    and address any ethical concerns
                          3.104-5(c)(2) states that the HCA,
                          after consultation with the agency        on the part of any employee
                                                                    involved in the contracting process
                          ethics official, may authorize the
                                                                    as well as any organizational
                          disqualified official to resume
                                                                    conflicts of interest on the part of its
                          participation in the procurement
                                                                    suppliers. Additionally, when
                          after the conditions of the
                                                                    submitting a noncompetitive


                                                       12
The Sufficiency of Recent Policy Changes Regarding                                       CA-AR-11-006
 Contracting Conflicts of Interest


                        disqualification have been resolved.     purchase request, the responsible
                        The HCA’s reinstatement decision         parties of the requesting
                        should be in writing.                    organization must certify they do not
                                                                 have conflicts of interest or loss of
                        FAR 3.104-7(a)(1)(ii) states that if a   impartiality and will not disclose any
                        CO receives or obtains information       sensitive information during the
                        of a violation or possible violation     purchasing process.
                        and concludes that there is no
                        impact on the procurement, the CO        There are several restrictions
                        must forward the information to an       imposed by law and federal
                        individual designated in accordance      regulation on Executive-branch
                        with agency procedures. If that          employees that require Postal
                        individual does not concur, they         Service employees, under certain
                        must promptly forward the                circumstances, to seek ethics
                        information and documentation to         counseling prior to participating in a
                        the HCA and advise the contracting       contracting activity. In general, if an
                        officer to withhold award.               employee (1) has a direct or
                                                                 imputed financial interest in the
                        FAR 3.104-7(a)(2) states that if the     matter, (2) if the employee’s
                        CO concludes that the violation or       participation in the matter would
                        possible violation impacts the           lead a reasonable person with the
                        procurement, the CO must                 relevant facts to question his/her
                        promptly forward the information to      ability to remain impartial in the
                        the HCA.                                 matter, or (3) if the employee’s
                                                                 participation in the matter would
                        FAR 3.104-7(b)(1) states the HCA         give rise to an appearance that the
                        must review all information              employee was using his public office
                        available and, in accordance with        for the private gain of another
                        agency procedures, take                  person, the Postal Service
                        appropriate action, such as advise       employee must disclose the real or
                        the CO to continue with the              apparent ethical issue to the CO
                        procurement or begin an                  and seek ethics counseling before
                        investigation.                           participating in any phase of the
                                                                 contracting process.
                        FAR 3.104-7(f) and (g) state that if
                        the HCA determines that urgent           Postal Service employees who
                        and compelling circumstances             identify a financial conflict of interest
                        justify an award, or the award is        in the course of their work must
                        otherwise in the interests of the        immediately contact ethics counsel
                        government, the HCA may                  to determine (1) whether he/she
                        authorize the CO to award the            must recuse him/herself from the
                        contract or execute the contract         contracting activity, (2) whether the
                        modification after notifying the         employee is eligible for a statutory
                        agency head. The HCA may also            waiver which would allow the
                        delegate his or her authority under      employee to participate despite the
                        this subsection to an individual at      conflict of interest; or (3) whether
                        least one organizational level           the Postal Service is entitled to
                        above the CO and of General              order the employee to divest the
                        Officer, Flag, Senior Executive          conflicting financial interest. Under
                        Service, or equivalent rank.             no circumstance may an employee



                                                     13
 The Sufficiency of Recent Policy Changes Regarding                                    CA-AR-11-006
  Contracting Conflicts of Interest


                                                                participate in the matter in which the
                                                                employee has identified a conflict
                                                                until written advice approving such
                                                                participation is provided by ethics
                                                                counsel.

                                                                Postal Service employees must
                                                                avoid taking any action that could
                                                                lead to an appearance that the
                                                                employee has lost his/her ability to
                                                                remain impartial in performing
                                                                his/her official duties. Additionally,
                                                                Postal Service employees must
                                                                ensure that performance of their
                                                                official duties do not give rise to an
                                                                appearance of the misuse of public
                                                                office for private gain. Therefore,
                                                                any employee involved in a
                                                                contracting activity must disclose to
                                                                the CO any personal or business
                                                                relationship the employee has with
                                                                any third party that may have a
                                                                direct or indirect interest in the
                                                                contract matter at hand. Unless a
                                                                Postal Service employee has
                                                                received prior authorization from
                                                                ethics counsel to proceed, an
                                                                employee cannot participate in a
                                                                contract matter that may lead a
                                                                reasonable person with the relevant
                                                                facts to question the employee’s
                                                                ability to remain impartial in the
                                                                matter.

                                                                COs should refer to the Standards
                                                                of Ethical Conduct for Employees of
                                                                the Executive Branch, 5 CFR Part
                                                                2635, or seek ethics counseling
                                                                whenever there is a question
                                                                regarding an ethical obligation in
                                                                any contracting activity. Ethics
                                                                counsel will advise the CO and the
                                                                employee if the Postal Service’s
                                                                best interests will be served by the
                                                                employee’s participation in the
                                                                matter or if the employee must be
                                                                disqualified from these activities.
FAR 6.302                Statutory authorities for other than   The Postal Service has four
Circumstances            full and open competition include:     business scenarios under which the



                                                      14
  The Sufficiency of Recent Policy Changes Regarding                                                 CA-AR-11-006
   Contracting Conflicts of Interest


Permitting Other Than                Only one responsible                 noncompetitive method may be
Full and Open                         source and no other                  used:
Competition                           supply/service will satisfy
                                      agency requirements                          Sole source
                                  Unusual and compelling                          Compelling business
                                      urgency                                       interests
                                  Industrial mobilization                         Industry structure or practice
                                  International agreement                         Superior performance.
                                  Authorized or required by
                                      statute
                                  National security
                                  Public interest
FAR 6.303-1(a)(2)            The CO must certify the accuracy              The CO must thoroughly review the
Certification of the         and completeness of the                       noncompetitive purchase request,
Noncompetitive               justification.                                evaluate the supplier, consider any
Justification                                                              other matter that may lead to a more
                                                                           informed business decision, and
                                                                           then make a recommendation to the
                                                                           approving authority. These actions,
                                                                           in effect, make the CO accountable
                                                                           for his or her actions.
FAR 6.303-2 (b)(7)           A determination by the CO that the            Require the CO to negotiate
Fair and Reasonable          anticipated cost to the government            reasonable pricing and terms and
Cost                         will be fair and reasonable.                  conditions prior to contract award.
FAR 6.305 Availability       The noncompetitive justification              The Postal Service plans to
of the Justification         shall be made publicly available at           implement noncompetitive contract
                             the Governmentwide Point of Entry             reporting enhancements by
                             and on the agency website within              November 2011.
                             14 days after contract award.
FAR 6.501                    The head of each executive agency             The vice president, Supply
Competition                  shall designate a CA for the                  Management, appoints a CA14
Advocates                    agency.13 Agency CAs are                      whose responsibilities include
                             responsible for promoting full and            challenging barriers to competition,
                             open competition, challenging                 assisting purchasing teams in
                             requirements that are not stated in           developing Supply Chain
                             terms of functions to be performed,           Management solutions, obtaining
                             performance required or essential             best value, and independently
                             physical characteristics, and                 reviewing and advising the CO on
                             challenging barriers to the                   all noncompetitive purchase
                             acquisition of commercial items and           requests valued at $1 million or
                             full and open competition such as             more. Portfolio managers within
                             unnecessarily restrictive statements          Supply Management may approve
                             of work, unnecessarily detailed               purchase method recommendations
                             specifications, and unnecessarily             for noncompetitive purchases
                             burdensome contract clauses. The              valued at up to $10 million, except

  13
     FAR 1.108(b) states that each authority is delegable unless specifically stated otherwise. We noted examples
  where the agency head delegated the authority to appoint a CA.
  14
     The Postal Reorganization Act provides purchasing authority to the PMG, who has delegated all purchasing and
  related policy development authority to the vice president, Supply Management.


                                                         15
  The Sufficiency of Recent Policy Changes Regarding                                    CA-AR-11-006
   Contracting Conflicts of Interest


                          CA is required to submit an annual      for noncompetitive purchases of
                          report to the chief acquisition         professional, technical, and
                          officer. FAR 6.304 Approval of the      consultant services valued at
                          Justification states the CA or an       $1 million or more. Requests for
                          individual in a grade above GS-15       noncompetitive professional,
                          or comparable must approve              technical, and consultant service
                          justifications valued between           purchases valued at $1 million or
                          $650,000 and $12.5 million.             more, and all other noncompetitive
                          Justifications over $12.5 million       purchases valued at $10 million or
                          must be approved by the head of         more, must be reviewed and
                          the procuring activity.                 approved by the vice president,
                                                                  Supply Management. Portfolio
                                                                  managers may delegate up to
                                                                  $250,000 of this purchase method
                                                                  approval authority to subordinate
                                                                  team leaders or managers in the
                                                                  applicable purchasing organizations.

                                                                  The CA is required to produce an
                                                                  annual report on noncompetitive
                                                                  purchase activity that is submitted to
                                                                  the vice president, Supply
                                                                  Management, and posted online for
                                                                  both internal Postal Service and
                                                                  public audiences. Reporting is
                                                                  scheduled to begin in
                                                                  November 2011.
FAR 9.502                 Organizational conflicts of interest    An organizational conflict of interest
Organizational            are more likely to occur in contracts   exists when the nature of the work
Conflicts of Interest     involving:                              to be performed under a contract
                                                                  may give an offeror or supplier an
                                 Management support              unfair competitive advantage and
                                  services.                       when an offeror or supplier has
                                 Consultant or other             other interests that may impair
                                  professional services.          objectivity or the ability to render
                                 Contractor performance of       impartial assistance or advice or to
                                  or assistance in technical      provide objectivity in performing the
                                  evaluations. Systems            contract work. Although such
                                  engineering.                    conflicts are not limited to any
                                                                  particular type of purchase, they are
                                                                  more likely to occur in contracts
                                                                  involving:

                                                                       Professional, technical, and
                                                                        consultant services.
                                                                       Performance of or assistance
                                                                        in technical evaluations.
                                                                       Those for projects that are
                                                                        purchased in separate
                                                                        phases.


                                                       16
  The Sufficiency of Recent Policy Changes Regarding                                      CA-AR-11-006
   Contracting Conflicts of Interest


FAR 9.504                 COs shall analyze planned                As part of purchase planning, COs,
CO Responsibilities       acquisitions to:                         with the assistance of the purchase
                                                                   team, must attempt to identify
                                 Identify and evaluate            organizational conflicts of interest so
                                  potential organizational         that they may be avoided,
                                  conflicts of interest.           neutralized or mitigated (when
                                 Avoid, neutralize, or            purchases will be made
                                  mitigate significant potential   noncompetitively, certain
                                  conflicts before contract        disclosures must be made). When a
                                  award.                           potential organizational conflict is
                                 Obtain the advice of             foreseeable, the contracting officer
                                  counsel and the assistance       should consult with assigned
                                  of appropriate technical         counsel and obtain the assistance of
                                  specialists in evaluating        appropriate technical specialists to
                                  potential conflicts and in       consider the potential to avoid,
                                  developing any necessary         neutralize, or mitigate the
                                  solicitation; and provisions     organizational conflict of interest.
                                  and contract clauses.            Mitigation actions may include, but
                                 Recommend to the HCA a           are not limited to:
                                  course of action for
                                  resolving the conflict.                Developing a solicitation
                                                                          provision restricting
                                                                          competition to offerors
                                                                          without conflicts of interest.
                                                                         Including a contract clause
                                                                          limiting the supplier’s
                                                                          eligibility for future contracts
                                                                          and subcontracts.
                                                                         The adoption of other
                                                                          measures to ensure as fair a
                                                                          competition as possible.

                                                                   Any limit on future contracts must be
                                                                   for a reasonable period sufficient to
                                                                   avoid unfair competitive advantage
                                                                   or potential bias.




                                                       17
  The Sufficiency of Recent Policy Changes Regarding                                       CA-AR-11-006
   Contracting Conflicts of Interest


FAR 9.5                   FAR 9.503 states the agency head           Postal Service policy does not
Organizational and        or a designee may waive any                discuss any waivers specific to
Consultant Conflicts      general rule or procedure of this          organizational conflicts of interest.
of Interest               subpart by determining that its            The vice president, Supply
                          application in a particular situation      Management, and associate general
                          would not be in the government’s           counsel and chief ethics officer
                          interest. Any request for waiver           stated a waiver is not allowed and, if
                          must be in writing, shall set forth        an organizational conflict of interest
                          the extent of the conflict, and            cannot be avoided, neutralized, or
                          requires approval by the agency            mitigated then they must find
                          head or a designee. Agency heads           another supplier.
                          shall not delegate waiver authority
                          below the level of HCA.                    Also, the Postal Service’s contract
                                                                     Clause 1-7, Organizational Conflicts
                          FAR 9.504(e) states that if the CO         of Interest, among other things,
                          finds that it is in the best interest of   warranties against existing
                          the U.S. to award the contract             organizational conflicts of interest
                          notwithstanding a conflict of              and requires the supplier to disclose
                          interest, a request for waiver shall       any possible future organizational
                          be submitted. The waiver request           conflicts of interest.
                          and decision shall be included in
                          the contract file.

                          FAR 9.506 (b) states if the CO
                          decides that an acquisition involves
                          a significant potential organizational
                          conflict of interest, the CO shall,
                          before issuing the solicitation,
                          submit for approval to the chief of
                          the contracting office a draft
                          solicitation provision and, if
                          appropriate, a proposed contract
                          clause.
FAR 9.505                 The exercise of common sense,              All members of the Proposal
General Rules             good judgment, and sound                   Evaluation team are required to
                          discretion is required in deciding         complete the conflict of interest
                          whether a significant potential            certification and non-disclosure
                          conflict exists and, if it does, the       agreement. Additionally, as
                          means for resolving it.                    discussed above, when non-Postal
                                                                     Service employees are members of
                          The two underlying principles are:         the Proposal Evaluation team, the
                                                                     CO should take steps to safeguard
                                 Preventing the existence of        against or mitigate any conflicts of
                                  conflicting roles that might       interest. The signers of the
                                  bias a contractor’s                noncompetitive purchase request
                                  judgment.                          also sign a conflict of interest
                                 Preventing unfair                  certification and non-disclosure
                                  competitive advantage.             agreement.
                          An unfair competitive advantage


                                                       18
  The Sufficiency of Recent Policy Changes Regarding                                                   CA-AR-11-006
   Contracting Conflicts of Interest


                             exists when a contractor competing
                             for award of any federal contract
                             possesses:

                                    Proprietary information
                                     obtained from a government
                                     official without proper
                                     authorization.
                                  Source selection
                                     information that is relevant
                                     to the contract but is not
                                     available to all competitors
                                     when such information
                                     would assist that contractor
                                     in obtaining the contract.
FAR 37.102                   Services must be obtained in the               Requires the CO to pay particular
Purchasing of                most cost-effective manner, without            attention to the potential for
Services                     barriers to full and open                      organizational conflicts of interest
                             competition, and free of any                   when purchasing services.
                             potential conflicts of interest.
FAR 37.203                   Advisory and assistant services15              Requires the CO to enforce the
Purchasing of                shall not be contracted for on a               policy of not contracting with former
Advisory/Assistant           preferential type basis to former              Postal Service officers and PCES
Services                     government employees.                          executives if the contract calls for
                                                                            substantially the same duties they
                                                                            performed during their career when
                                                                            purchasing consultant services.16




  15
     Services that support or improve organizational policy development, decision-making, management and
  administration, program management and administration, or research and development activities.
  16
     Consultant services are used to enhance the understanding of complex issues and to provide new insights into
  alternate solutions to, or make recommendations on, business or decision-making functions of a postal organization.


                                                          19
The Sufficiency of Recent Policy Changes Regarding             CA-AR-11-006
 Contracting Conflicts of Interest


                           Appendix D: Management’s Comments




                                                     20
